RULE 44.2 GOOD FAITH CERTIFICATION REGARDING
PETITION FOR REHEARING OF DENIAL OF PETITION FOR
WRIT OF CERTIORARI
Case No. 20-978
Case Name: Poppi Metaxas v. United States of America
Title: Petition for Rehearing
Attorney Brandon Sample pursuant to Supreme Court Rule 44.2
hereby certifies that the forgoing attached Petition for Rehearing is
limited to other substantial grounds no tpreviously considered, and is
made in good faith and not for delay. Specifically, the ground not
specifically previously considered relate to whether there was a live
case or controversy at the time the Court denied certiorari.
DATED this 19th day of March, 2021.
Respectfully submitted,
/s/Brandon Sample
Brandon Sample
Brandon Sample PLC
P.O. Box 250
Rutland, Vermont 05702
Phone: (802) 444-4357
Fax: (802) 779-9590
Vt Bar # 5573
Email: brandon@brandonsample.com
https://brandonsample.com
Counsel for Petitioner

